In The SUPREME COURT Of The UNITED STATES
No. 20-1589
KRIS KASZUBA, dba Hollywood Group
Petitioner,
v.
Andrew Hirshfeld, Acting Director of USPTO
Intervenor.
CERTIFICATE 'OF SERVICE
I certify that all parties have been served with three copies of the
PETITIONER's REPLY, NEW QUESTIONS & NEW EVIDENCE by
USPS First Class Mail and a copy by email this 30th day of August, 2021 to:
Acting Solicitor General
do Brian H. Fletcher
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USD0J. gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 30, 2021

/AB/ electronic signature
Antonia Bebar
2683 Via de la Valle, # G246
San Diego, CA 92014
antoniabeb@gmail.com

